Report No. DODIG-2012-123              August 31, 2012




               Special Plans and Operations



                      Assessment of the
          Federal Voting Assistance Program Office
                    Implementation of the
       Military and Overseas Voter Empowerment Act
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
This Page Intentionally Left Blank
                Results in Brief: Federal Voting Assistance
                Program Implementation of the Military and
                Overseas Voter Empowerment (MOVE) Act
What We Did                                                  the largest source of error in the 2010
                                                             Post-Election Voting Survey of Uniformed
To determine if voting assistance programs                   Service Members. Because DMDC
carried out under the Uniformed and                          considered nonresponse bias the largest
Overseas Absentee Voting Act (UOCAVA),                       source of survey error, FVAP and DMDC
as amended, and subsequently modified by                     need to work to increase response rates.
the Military and Overseas Voter
Empowerment (MOVE) Act complied with                         Voting Assistance Offices – One of the
the law, and were effective in meeting the                   most significant provisions of the MOVE
law’s intent, we focused on:                                 Act is a requirement for the Military
                                                             Services to establish an installation voting
    •    The sufficiency of survey data used
                                                             assistance office (IVAO) on every
         in assessing program effectiveness.
                                                             installation under their control (except for
    •    Compliance with the MOVE Act                        installations in a warzone). To assess
         requirement to establish voting                     effectiveness of DoD efforts to establish
         assistance offices on all installations             IVAOs, we attempted to contact 100 percent
         worldwide.                                          of the installations identified by the FVAP
                                                             website. Results were clear. Our attempts
What We Found                                                to contact IVAOs failed about 50 percent of
Data Sufficiency – Federal Voting                            the time.
Assistance Program (FVAP) officials
explained that program assessment required                   We concluded the Services had not
rigorous, data-driven statistical analysis.                  established all the IVAOs as intended by the
Accordingly, they prepared their 2010 Post                   MOVE Act because, among other issues, the
Election Survey Report to Congress with the                  funding was not available. Officials pointed
help of the Defense Manpower Data Center                     out the law did not authorize DoD additional
(DMDC).                                                      funding for this initiative and estimated
                                                             IVAO costs could exceed $15-20 million per
Report assertions about voting by active                     year.
duty personnel in 2010 might have been
more credible had more than the 15 percent                   DoD officials also posed concerns about
of the military personnel queried responded                  IVAO effectiveness. They noted that
to the survey. DMDC's nonresponse bias                       younger military personnel were the biggest
report suggests that the weighting methods                   DoD military population segment and
they used substantially reduced the                          emphasized that IVAOs were likely not the
nonresponse bias present in unweighted                       most cost effective way to reach out to them
estimates. 1 Nonresponse bias likely remains                 given their familiarity and general
                                                             preference for communicating via on-line
                                                             social media and obtaining information from
1                                                            internet websites. They suggested assistance
  Draft 2010 Post-Election Voting Survey of Uniformed
Service Members: Mode and Nonresponse Bias Studies, p.       might be provided more effectively and
15.                                                          efficiently by targeted advertising,


                                                         i
technology, like Twitter and Facebook, and           Analysis of Management
online tools, supplemented by well-trained
unit voting assistance officers, who are             Comments
already in place.                                    Management comments are responsive to
                                                     our recommendations and we believe the
Moreover, FVAP officials indicated that
                                                     actions management has planned will
investing in intuitive, easy-to-use web-based
                                                     address the issues we identified.
tools, rather than IVAOs—could
substantially reduce cost and improve voting
assistance. The FVAP will specifically
address that approach in its pending report
to Congress, and DoDIG will focus on this
option during our on-going assessment and
reporting.

What We Recommend
1. The FVAP continue to collaborate with
the DMDC to design a survey that will
increase the 2012 post-election survey
response rate.
2. The Federal Voting Assistance Program
Office, in coordination with Office of the
Under Secretary of Defense for Personnel
and Readiness, develop a legislative
proposal requesting relief from the MOVE
Act mandated requirement for the military
Services to maintain voting assistance
offices on all installations worldwide. Such
proposal should change the mandatory
requirement to one that is discretionary to
the Secretaries of the Military Departments
with the intent that the Services optimize
voting assistance to military personnel and
other overseas citizens.

Management Comments
Management concurred with both of our
recommendations, identified actions they
planned to increase the 2012 Post-Election
Survey response rate, and agreed the
recommended legislative proposal would
allow the Services to optimize absentee
voting assistance. Managements comments
in their entirety are included at Appendix D.



                                                ii
Table of Contents
Introduction................................................................................................................................... 1
Background ..................................................................................................................................... 1
                 Voting Assistance Programs ......................................................................................... 1
                 Federal Oversight of Voting Assistance Programs ....................................................... 2
Objective ......................................................................................................................................... 3
Scope, Methodology, and Prior Reporting ..................................................................................... 3
Management Control Weaknesses and Constraints on Program Assessment ................................ 4
Observation 1. Data Sufficiency ................................................................................................. 5
Background ..................................................................................................................................... 5
What We Did .................................................................................................................................. 5
What We Found .............................................................................................................................. 6
What We Recommend .................................................................................................................... 7
Management Comments……………………………………………………………………….…..7
Analysis of Management comments………………………………………………………………7
Observation 2. Installation Voting Assistance Offices ............................................................. 9
Background ..................................................................................................................................... 9
What We Did ................................................................................................................................ 11
What We Found ............................................................................................................................ 12
                 Joint Bases .................................................................................................................. 12
                 Overseas Installations ................................................................................................. 13
                 Efforts to Establish IVAOs ......................................................................................... 14
                 FVAP Outreach to Military Personnel........................................................................ 15
What We Recommend .................................................................................................................. 15
Management Comments………………………………………………………………….………15
Analysis of Management Comments…………………………………………………………….15
Appendix A – Technical Methodology ...................................................................................... 17
Appendix B – Prior Report Coverage ....................................................................................... 25
Appendix C – Installation Voting Assistance Offices (IVAO) ................................................ 29
           Army Installations............................................................................................................. 30
           Air Force Installations ...................................................................................................... 32
           Navy Installations ............................................................................................................. 34
           Marine Corps Installations ................................................................................................ 36
           Coast Guard Installations .................................................................................................. 37
Appendix D - Management Comments……………………….………………………….…….40


                                                                          iii
Acronyms and Abbreviations
BRAC                (Defense) Base Closure and Realignment Commission
DoD                 Department of Defense
DoDIG               Department of Defense Inspector General
DMDC                Defense Manpower Data Center
DTM                 Directive-Type Memorandum
FVAP                Federal Voting Assistance Program
GAO                 Government Accountability Office
IG                  Inspector General
IVAO                Installation Voting Assistance Office
MOVE                Military and Overseas Voter Empowerment (Act)
OMB                 Office of Management and Budget
UOCAVA              Uniformed and Overseas Absentee Voting Act




                                    iv
Introduction
Background
Voting Assistance Programs – The Uniformed and Overseas Citizens Absentee Voting
Act (UOCAVA [P.L. 99-410], August 28, 1986), as amended and subsequently modified
by the Military and Overseas Voter Empowerment (MOVE) Act (P.L. 111-84, Title V,
Subtitle H) on October 28, 2009, specified that the right to vote was fundamental. The
law explained that many
logistical, geographical,
operational, and
environmental barriers
restricted the ability to
vote for military and
other eligible overseas
citizens. Accordingly,
the law established
various programs and
requirements intended to
help military and eligible
overseas citizens
register, vote, and have
their votes counted. The
law impacted numerous
federal agencies,
including the:             A U.S. Forward Operating Base in the Arghandab River Valley,
                           Kandahar Province, Afghanistan, August 2010, prior to the 2010 Federal
   •   U.S. Department     election. Because of technology, personnel assigned to this combat
                           outpost could get absentee voting assistance through Federal Voting
       of Defense,         Assistance Program websites.

   •   U.S. Department of State,

   •   U.S. Department of Homeland Security,

   •   U.S. Department of Justice,

   •   U.S. Military Departments and Services, and

   •   United States Postal Service.

The law also:

   •   impacted state and local jurisdictions;

   •   charged the Secretary of Defense (SecDef) with responsibility for all Federal
       voting assistance functions;




                                             1
   •   required the SecDef to consult with federal, state, and local officials to ensure
       they were aware of the law’s relevant provisions; and

   •   authorized the SecDef to establish a Federal Voting Assistance Program (FVAP)
       reporting to the Under Secretary of Defense for Personnel & Readiness through
       the Federal Voting Assistance Program Director.

Federal Oversight of Voting Assistance Programs – In the aftermath of the November
2000 Presidential election, and subsequently necessitated by law or Congressional
request, the Government Accountability Office (GAO), Department of Defense Inspector
General (DoDIG), Postal Service IG, Military Service IGs, and other Federal entities,
were required to report on voting assistance program compliance with law and regulation.
Additionally, they were required to report on the effectiveness of those programs in
achieving intended purposes. For example:

   •   The Federal Voting Assistance Program Office – UOCAVA, as amended by
       the MOVE Act, required the Program Office to:

        Report to Congress within 180 days of MOVE Act implementation on their
         assessment of compliance with the law’s provisions, and the effectiveness of
         programs intended to assist military personnel and overseas citizens vote.

        Report to Congress not later than March 31st of each year, on their assessment
         of compliance with voting assistance laws, and the effectiveness of voting
         assistance programs, including programs implemented by each of the Military
         Services.

   •   United States Government Accountability Office (GAO) – Beginning in
       December 2000, Congressional requests required the GAO to routinely audit
       voting assistance program compliance; evaluate program effectiveness; and assess
       the integrity of the electoral process at the federal, state, and local levels. GAO
       audits consistently included the programs of the DoD, the Military Services, and
       the Department of State.

   •   Military Service Inspectors General (IGs) – Title 10, United States Code,
       Section 1566, (10 U.S.C. § 1566), as amended, required the IGs of the Army,
       Navy, Air Force, and Marine Corps to annually review compliance with their own
       Service’s voting assistance programs; review program effectiveness; and report
       results to the DoDIG.

   •   Department of Defense Inspector General – 10 U.S.C. § 1566 required the
       DoDIG to report to Congress each year on compliance with all voting assistance
       programs, including compliance by the Army, Navy, Air Force, and Marine
       Corps. The law also required the DoDIG to report on the effectiveness of all
       voting assistance programs.

For a list of reports on military and overseas voting assistance programs issued since
November 2000, see Appendix B – Prior Report Coverage.




                                             2
Objective
The objectives of our assessment were to determine whether voting assistance programs
carried out under the Uniformed and Overseas Absentee Voting Act (UOCAVA), as
amended, and subsequently modified by the Military and Overseas Voter Empowerment
(MOVE) Act:

    •   complied with the law and DoD implementing instructions,

    •   were effective in meeting the law’s intent.

Scope, Methodology, and Prior Reporting
We conducted this assessment in conjunction with our responsibilities under 10 U.S.C.
§ 1566, and in accordance with provisions of the Inspector General Act of 1978 as
amended. As indicated, the
FVAP is a major
multidimensional program
impacting numerous Federal,
state, and local agencies and
jurisdictions, and is subject to
repetitive examination and
reporting by various Federal
oversight organizations. These
oversight reports have focused
on program compliance with
law or regulation and assessed
program effectiveness.
Collectively, the reports form a
substantial body of work to
which senior public officials
and those charged with
governance can refer in shaping
their decisions and actions.

The IG Act of 1978 requires
DoDIG to avoid duplication by The U.S. Navy Aircraft Carrier USS Carl Vinson entering Pearl
coordinating with the GAO,         Harbor. Personnel deployed at sea, like personnel deployed in
other Federal IGs, Military        combat zones, need absentee voting assistance which they
Service IGs, and other Federal can     obtain through Federal Voting Assistance Program
                                   websites.
entities. To avoid duplication
and repetition—and accomplish the DoDIG mission—we used a continuous assessment
methodology consistent with routine multi-organizational oversight of complex programs
impacting entities and jurisdictions worldwide. The methodology includes on-going:

    •   analysis of previous and on-going oversight activity and reporting,

    •   risk assessment based on data reliability and management control,

    •   dialog with senior public officials and stakeholders at all levels,


                                               3
   •   active consideration of stakeholder feedback, and

   •   separate reporting focused on individual program elements.

Our most recent voting-related report, issued earlier this year, Assessment of Voting
Assistance Programs for Calendar Year 2011 (Report No. DoDIG-2012-068, March 30,
2012), focused on the voting assistance programs of the Army, Navy, Air Force, and
Marine Corps, as reported by their Inspectors General.

This report focuses on:

   •   the sufficiency of survey data used to manage and assess voting assistance
       program effectiveness.

   •   compliance with the MOVE Act requirement to establish a voting assistance
       office on every military installation worldwide.

Additional information on scope, methodology, and prior reporting is located in report
observation sections 1 and 2, at Appendix A – Technical Methodology, and at
Appendix B – Prior Report Coverage.

Management Control Weaknesses and Constraints on
Program Assessment
Federal Voting Assistance Program reporting required by law has been consistently late.
For example:

   •   The initial MOVE Act implementation report was due April 26, 2010, a date
       preceding the November 2010 election. Had the report been issued on time, it
       would have provided Federal and state officials with information they might have
       used to inform their pre-election decisions. However, the report was not issued
       until March 17, 2011. Program officials explained the report was delayed by
       funding constraints and work with the Department of Justice on complex issues
       associated with installation voting assistance offices.

   •   The calendar year 2010 annual report, due March 31, 2011, was not issued until
       September 2011. The report focused on the 2010 post-election survey. Program
       officials explained the report was late because survey data was not available from
       the Defense Manpower Data Center (DMDC) until June or July 2011.

   •   The calendar year 2011 annual report, due March 31, 2012, is currently pending.

Additionally, we determined that Military Department and FVAP installation records
were erroneous, incomplete, or not readily available. Consequently, we could not
authoritatively determine the universal list of military installations that required the
voting assistance offices mandated by law.




                                             4
Observation 1. Data Sufficiency
Background
FVAP officials explained that current program management and evaluation of program
performance requires rigorous data-driven statistical analysis using “results based”
metrics and transparent data collection methodologies. Nonetheless, prior oversight
reports concerning FVAP frequently identified significant data reliability problems. For
example, GAO audit, Elections: DoD Can Strengthen Evaluation of Its Absentee Voting
Assistance Program (Report No. 10-476, June 17, 2010) examined program
effectiveness focused on the FVAP 2008 post-election survey. The 2008 survey was
based on responses to questions posed to service members, eligible overseas voters,
voting assistance officers, among others. The GAO:

   •   made suggestions for survey questions and collection methodology to improve
       data reliability,

   •   pointed out that many military members who were asked to respond to the 2008
       survey did not respond,

   •   explained that survey methodology had not complied with Office of Management
       and Budget (OMB) Guidance on Agency Survey and Statistical Information
       Collections, June 2006, because it did not include a non-response bias analysis to
       consider the impact of the low response rate, and

   •   concluded that because the FVAP failed to conduct a non-response bias analysis,
       as required by OMB guidance, FVAP conclusions about program effectiveness
       might not be reliable; FVAP ability to provide a complete picture of program
       performance was limited; and the quality of required FVAP reports to Congress
       could be adversely impacted.

In response, FVAP officials acknowledged the GAO criticism of the 2008 post-election
survey and explained that, in the future, they would improve survey methodology by
seeking additional technical expertise from the Defense Manpower Data Center
(DMDC). Subsequently, FVAP officials engaged DMDC to assist in 2010 post-election
survey preparation, execution, and analysis at a cost of $2.3 million. The FVAP 2010
Post Election Survey Report to Congress, dated September 2011, was prepared with the
help of the DMDC. Like the 2008 post-election survey, it suggested voting assistance
programs were effective because when survey data was properly adjusted to compensate
for demographic and other differences, analysis indicated military populations registered
and voted at higher rates than their civilian counterparts, and that military participation
had improved appreciably between 2006 and 2010.

What We Did
To determine if the conclusions of the FVAP 2010 Post Election Survey Report to
Congress were reliable, and accurately reflected the effectiveness of voting assistance
programs, we assessed the 2010 post-election survey methodology. We supplemented


                                             5
our team with quantitative specialists from the DoDIG Quantitative Methods and
Analysis Division. The specialists performed a limited review of work performed by the
DMDC. The review focused on active duty military personnel. The DoDIG specialists
also reviewed the DMDC 2010 Post-Election Voting Survey of the Active Duty Military:
Statistical Methodology Report (Report No. 2011-007, April 2011), and discussed survey
techniques with the DMDC director and her staff. For additional information about
technical methodology, see Appendix A – Technical Methodology.

What We Found
According to the DoDIG specialists, the assertions about the voting participation of
active duty military personnel contained in the FVAP 2010 Post Election Survey Report
to Congress might have been more credible if more people had responded to the survey.
However, like the response rate for the 2008 post-election survey, the response rate for
the 2010 survey was low—with only 15 percent of the military personnel surveyed
responding. Because the response rate was low, the DMDC performed a non-response
bias analysis as required by OMB guidance. The objective was to determine if the
85 percent of military members not responding to the survey would have responded in the
same way as the 15 percent who did respond. The DoDIG quantitative specialists
reviewed the DMDC non-response bias analysis and found:

   •   In some cases the DMDC analysis had statistically significant different estimates
       between respondents and non-respondents.

   •   The DMDC study regarding non-response bias in the 2010 post-election survey
       was inconclusive.

DMDC's nonresponse bias report suggests that the weighting methods they used
substantially reduced the nonresponse bias present in unweighted estimates. DMDC
considered nonresponse bias the largest source of survey error.

The DMDC’s 2010 post-election survey used a web-based approach. The DoDIG
specialists suggested that for the upcoming 2012 post-election survey, the FVAP and
DMDC explore other survey data collection methods that might improve the response
rate. On Thursday, June 28, 2012, we met with the FVAP Director and principal FVAP
staff to discuss the DoDIG specialists’ observations and recommendations. The FVAP
officials acknowledged:

   •   The 15 percent active duty response rate to the 2010 post-election survey was too
       low.

   •   Getting 18-25 year-olds to respond to a survey or vote was difficult.

   •   Part of the issue was the survey length which included 80 questions.

   •   Survey response in other categories like military spouses and overseas citizens
       was even lower than for military members.




                                            6
The FVAP staff explained that they were aware of the issues involved and were already
actively working with DMDC to improve the upcoming 2012 post-election survey
response rate by using multiple survey techniques. For example, they said they were
considering a shortened, more concise survey, and a concept that involved technology to
allow surveyed personnel to respond from handheld devices. However, they explained
that use of any new technology to increase the response rate could be costly, and said
their initiatives would have to be evaluated in light of a rigorous cost/benefit analysis.

What We Recommend

 1. We recommend that the Federal Voting Assistance Program Office continue to collaborate
 with the Defense Manpower Data Center to design a survey that will increase the 2012
 post-election survey response rate.


Management Comments
Management concurred with our recommendation. They explained that both the Federal
Voting Assistance Program Office and the Defense Manpower Data Center agreed that
they needed to increase response rates to the 2012 Post-Election Survey, stated they
would use techniques not utilized in 2010, and stipulated they would add telephone
reminder calls throughout the 2012 survey period. Managements Comments in their
entirety are included at Appendix D.

Analysis of Management Comments
Management comments are responsive to our recommendations and we believe the
actions management has planned will address the issues we identified.




                                             7
This Page Intentionally Left Blank




                8
Observation 2. Installation Voting Assistance
Offices
Background
One of the most significant provisions of the MOVE Act was for the Military Services to
establish an installation voting assistance office (IVAO) on every installation under their
control (except for
installations in a
warzone). The law
envisioned an extensive
system of IVAOs
offering walk-in, face-
to-face voting assistance
to military members,
families, and overseas
citizens. The law
required the Services to
actively inform voters of
what help was
available—and the time,
location, and manner in The MOVE Act envisioned a physical facility on every military
which they might get         installation worldwide. The facility was to offer robust, walk-in,
                             face-to-face help to absentee voters. Buckley Air Force Base IVAO,
that help.                   Aurora, Colorado.

On November 15, 2010, the Under Secretary of Defense for Personnel and Readiness
issued Directive-Type Memorandum (DTM) 10-021, Guidance in Implementing
Installation Voter Assistance Offices (IVAOs), and the Federal Voting Assistance
Program (FVAP) Office
subsequently published an
Installation Voter Assistance
Office Handbook (undated).
Collectively the publications
reiterated the requirement to
establish an IVAO on every
military installation worldwide
and emphasized that the intent
was to provide “robust” assistance
to military personnel, dependents,
and overseas citizens.               The FVAP Installation Voting Assistance Office Handbook
Collectively the publications        required that Installation Commanders post the time
                                     assistance was available to absentee voters. Buckley Air
specified that IVAOs would:          Force Base IVAO, Aurora, Colorado.

   •   report directly to installation commanders,

   •   be located in fixed, well-advertised places that were easily accessible to people
       who might need help,


                                               9
    •   be staffed with one or two full-time people in each office, and

    •   manage the unit voting assistance officers assigned to units on their installations
        to ensure those officers fully complied with their voting assistance
        responsibilities.

The FVAP 2010 Post Election Survey Report to Congress, dated September 2011,
enumerated a purported universe of all installations worldwide that required IVAOs, and
stated that there were 224 installations in that universe, including 13 U.S. Coast Guard
installations. The FVAP report also said that with the exception of five U.S. Air Force
installations, all installations worldwide had established mandated offices. The FVAP
report did not identify the 224 installations by name. See details in the chart below.

                         Installation Voting Assistance Office Requirements
              (as reported in the FVAP 2010 Post Election Survey Report to Congress)

                             Military           Number of           Number of
                             Service           Installations     Installations with
                                             Requiring IVAOs      Existing IVAOs

                        U.S. Army                     51               51
                        U.S. Air Force                74               69
                        U.S. Navy                     68               68
                        U.S. Marine Corps             18               18
                        U.S. Coast Guard              13               13
                        Total                        224              219


The FVAP September 2011 report carefully stipulated that because Coast Guard stations
were small and
geographically
dispersed, all stations
did not have IVAOs,
and instead, relied on
voting assistance
officers supervised by
their Headquarters in
Washington DC, or
their Personnel
Service Center in
Arlington, Virginia.
The report stated
Coast Guard officials
were trying to develop
criteria to determine   Air Station Clearwater ( Florida) is the Coast Guard’s largest air station,
when a Coast Guard      supporting C-130 and H-60 Aircraft. It has an exchange, medical clinic,
                        and other support services for hundreds of Coast Guard personnel.
station should be       However, it does not have an IVAO and was not included on the FVAP’s
designated an           universal requirement list.
“installation” for MOVE Act compliance purposes—but had not yet done so.




                                                10
After the FVAP issued its September 2011 report to Congress, the Army, Air Force,
Navy, Marine Corps, and Coast Guard all reported their installations had IVAOs in place
and functioning as required by law.

What We Did
IVAO Compliance – To determine whether the Services complied with the requirement
to establish an IVAO on all installations worldwide, we asked the FVAP to provide the
names of the 224 installations enumerated in their September 2011 Report to Congress.
We immediately noted that the FVAP’s universal requirement list was incomplete
because some installations were not included. Examples included:

    •   Fort Meade, Maryland,

    •   Camp Casey, Korea,
    •   U.S. Army Garrison in Kaiserslautern, Germany, and

    •   Naval Support Activity Philadelphia (See picture below)

To determine the total extent to which FVAP records were incomplete, we developed a
separate list of military installations from various sources, including Service records and
the official FVAP website as it was posted in March 2012 (See Appendix C – Installation
Voting Assistance Offices [IVAO]). Reconciling errors, omissions, or inconsistencies in
FVAP records,
Service records, or
information from
other sources was
beyond the scope of
our work, and it was
not our intent to do
so. Further,
installation closures
or consolidations
resulting from 2005
Defense Base Closure
and Realignment
(BRAC) Commission, Naval Support Activity Philadelphia is an example of an installation that
such as consolidation did not appear on the FVAP’s list of installations requiring an IVAO.
of the twelve              Navy officials told us the installation did not have an IVAO because it
                           did not meet IVAO criteria. However, officials could not identify the
multi-Service Joint        criteria, or an exception to the MOVE Act requirement, signed by an
Bases, may have            official with authority to make such an exception. We did note that the
resulted in omissions installation website had a link to both the Navy Voting Assistance
or duplicate reporting. Program and the Federal Voting Assistance Program.
Accordingly, we make no representation that Appendix C is a definitive compilation of
all military bases worldwide, nor do we assert the absence of a base from the FVAP’s
requirement list necessarily meant the installation was without an IVAO. To develop
Appendix C, we independently reviewed official installation websites, spoke to



                                               11
installation personnel, and performed other steps to independently determine whether
individual installations commanders had complied with MOVE Act requirements.

IVAO Effectiveness – To assess the effectiveness of IVAOs that purportedly existed,
we placed ourselves in the shoes of potential voters seeking help. Using official FVAP
website contact information, as posted on the FVAP website in March 2012, we
attempted to contact 100 percent of the IVAOs the website identified. See Appendix C
for our attempted contact process.

What We Found
Overall results were clear. About half of the time, we were unable to contact the IVAOs
the website identified. See chart below.
     Contact with the Installation Voting Assistance Offices on the FVAP Website in March 2012

                    Number of                           Percentage of                        Percentage
   Military                           Successful                              Failed
                  IVAOs on the                           Successful                           of Failed
   Service                             Contacts                              Contacts
                  FVAP Website                            Contacts                            Contacts

Army                    54                 31                 57.4               21 *            38.8
Air Force               74                 29                 39.2               45              60.8
Navy                    68                 38                 55.9               30              44.1
Marine Corps            18                 10                 55.6                8              44.4
Coast Guard             15                  6                 40.0                9              60.0
Total                  229                114                 49.8              113              49.3

  * Does not include Fort McPherson and Fort Monroe which appeared on the FVAP website but were closed.


We also tried to determine if the IVAO program was complying with the spirit of the
law—providing walk-in,
face-to-face, full service
assistance. But
consolidations to achieve
cost savings may have
worked against the law’s
operational intent. As a
result, for reasons discussed
below, we believe the
number of IVAOs necessary
to comply with the spirit of
the law may significantly
exceed the number of
IVAOs actually in existence
today. For example:

Joint Bases – In 2005, to
                                                                                        © 2012 Google
combine support functions, A soldier stationed on Fort Eustis would have to travel about 40 miles
and save funds, the BRAC       round trip to visit the Langley-Eustis IVAO.
Commission took action that resulted in consolidation of what are now 12 multi-service
joint bases. One of those installations was Joint Base Langley-Eustis, which
consolidated the Army’s Fort Eustis, VA with Langley Air Force Base, VA. But the base


                                                   12
is really two installations located approximately 20 miles apart. To visit the joint IVAO
on Langley, a soldier stationed on Eustis would have to travel approximately 40 miles
round trip, past Newport News – Williamsburg International Airport in frequently
congested traffic. Geographical analysis of Joint Base Lewis-McChord, Joint Base San
Antonio, Joint Region Marianas (Guam), and others indicate similar results—the
consolidated bases would need an IVAO on every geographically separate installation to
provide the walk-in full service assistance the MOVE Act contemplated.

Overseas Installations – Analysis of overseas installations provided additional evidence
that cost considerations and other resource constraints were preventing the establishment
of an IVAO on all geographically separated installations. FVAP and Military Service
records identify IVAOs assigned to U.S. Army Garrisons—but Garrisons are
organizations, commands, or units—not installations. For example:

   •   U.S. Army Garrison Stuttgart is an organization that supports multiple separate
       installations in the Stuttgart, Germany region, where thousands of U.S. Army,
       Air Force, Navy, Marine Corps, and Coast Guard personnel, their families, and
       other U.S. citizens are assigned. The installations include Panzer Kaserne, Patch
       Barracks, Kelley Barracks, Robinson Barracks, and Stuttgart Army Airfield. The
       bases are all geographically separated by significant distances and travel between
       them in Stuttgart city
       traffic is not convenient.

   •   U.S. Army Garrison
       Kaiserslautern is
       organized like the
       Stuttgart Garrison.
       Located more than 100
       miles, and two hours
       northwest of Stuttgart, it
       is the largest American
       military community
       outside of the United
       States, and manages
       numerous separate and
       geographically
       dispersed installations.   Sembach Kaserne, formerly Sembach Air Base, is a separate
       These separate             installation located in the Kaiserslautern, Germany region
                                  and is approximately 16 miles and 30 minutes from Ramstein
       installations include      Air Base. Sembach is currently assigned to U.S. Army
       Rhine Ordnance             Garrison Kaiserslautern and does not have a separate IVAO.
       Barracks, Landstuhl Regional Medical Center, Panzer Kaserne, and Sembach
       Kaserne.

   •   The geographical and command structure of U.S. Army Garrisons in Korea,
       Japan, Italy, and numerous other locations worldwide are comparable to those in
       Germany. Physically separated installations do not all have IVAOs.




                                            13
Efforts to Establish IVAOs – As evidenced by published guidance and its ongoing
training and assessment activities, the FVAP is putting forth an effort to comply with the
law by encouraging the Military Services to establish IVAOs on their installations. But
program officials have concerns about the effectiveness of IVAOs, and the availability of
Military Service funding or other resources necessary to properly support them. We met
with the FVAP Director and the principal FVAP staff to discuss our observations and
their concerns—and to get their feedback. The program officials explained:

   •   The biggest population segment in the military are 18-25 year-olds, who have the
       lowest voting turnout. Placing IVAOs on all geographically separated
       installations worldwide may not be the most effective way to reach that age group.

   •   Fully funding IVAOs on all geographically separate installations worldwide could
       cost the military Services $15–20 million or more every year, but IVAOs have not
       been budgeted, and might duplicate more efficient and effective FVAP initiatives
       such as:

        Targeted advertising in publications like Military Times, Stars and Stripes,
         and Military Spouse, as well as on the Armed Forces Network.

        Active use of social media sites like Twitter, Facebook, LinkedIn, and
         MeetUp.

        Emails pushed to Service members via the military global network (for
         example, we noted on June 27, 2012, Marine Corps personnel on our staff
         received an email entitled “2012 Marine Corps Voting Information.” The
         email included information about absentee voting for the 2012 election cycle,
         and links to related websites.)

        Dedicated websites using quick and intuitive online tools—supplemented by
         well-trained voting assistance officers at unit level. (The email cited in the
         previous bullet included instruction on how to complete an on-line absentee
         ballot request, and a reminder that the unit voting assistance officer was
         available for additional help.)

   •   Given the time required for personnel to leave their units and travel to an IVAO,
       use of IVAOs will most likely never reach the level of use envisioned by the
       MOVE Act.

   •   Congressional action to help the FVAP shift from costly, ineffective IVAOs to
       more intuitive, easy-to-use web-based tools could substantially reduce cost and
       improve voting assistance quality.

For additional information on IVAOs, see Appendix C – Installation Voting Assistance
Offices (IVAO).




                                            14
FVAP Outreach to Military Personnel – Throughout our work, we noted that the
FVAP had made significant efforts to develop and implement a communications and
marketing plan—principally focused on younger military personnel—using technology,
advertising, social media, email notifications, and web-based systems. FVAP officials
asserted that these efforts appear to be effective. For example, at the end of 2011, as they
began their outreach and communication program for the 2012 primaries, they explained
activity on their web-based voter assistance systems significantly increased. The
effectiveness of these outreach efforts will be specifically addressed in the FVAP’s
upcoming report to Congress for the period January – December 2011, and will be the
focus of continuous DoDIG assessment and reporting.

What We Recommend
2. We recommend that the Federal Voting Assistance Program Office, in coordination with
the Office of the Under Secretary of Defense for Personnel and Readiness, develop a
legislative proposal requesting relief from the MOVE Act mandated requirement for the
military Services to maintain voting assistance offices on all installations worldwide. Such
proposal should change the mandatory requirement to one that is discretionary to Secretary of
the Military Departments with the intent that the Services optimize voting assistance to
military personnel and other overseas citizens.

Management Comments
Management concurred with our recommendation and agreed such a proposal would
allow the Services to optimize absentee voting assistance based on local Service
requirements. Managements Comments in their entirety are included at Appendix D.

Analysis of Management Comments
Management comments are responsive to our recommendations. We believe the actions
management has planned will address the issues we identified.




                                             15
This Page Intentionally Left Blank




               16
Appendix A. Technical Methodology
The purpose of this review is to validate the 2010 Post Election Survey estimates
produced by Defense Manpower and Data Center (DMDC) and comment on the survey
methodology approach used by the Program Office. We do not comment on data
collection issues or methodology. We do not comment on the Program Office or DMDC
compliance with OMB survey, guidance unless it involves technical issues.

The Quantitative Methods Division (QMD) performed a limited review of the 2010 Post
Election Survey Report to Congress, dated September 2011. We met with DMDC and
they provided the sample data and their weights used to adjust the responses to the U.S.
Census Voting Age Population (CVAP) estimates. We also received the 2010 Post-
Election Voting Survey of Uniformed Service Members: Mode and Nonresponses Bias
Studies, 2010 Posts-Election Survey of Active Duty Military Statistical Methodology.

Based on our review we conclude:

   (1) the response rate for Active Duty Military was 15 percent (see Table 1 of the
       2010 Post Election Survey Report to Congress, dated September 2011), which
       limits the survey results.

   (2) most of the Active Duty Military estimates were reproducible using the weights
       provided by DMDC and computationally valid (see Table 2), and
   (3) due to the low response rate with the web survey approach, other survey modes
       should be explored
RESPONSE RATE

The Active Duty Military response rate is 15 percent (reported by DMDC), which is a
low response rate. In general, a low response rate leads to non-response bias and this will
affect the accuracy of the results. When the unit response rate is less than 80 percent,
OMB guidance requires a nonresponse bias analysis be performed. We reviewed the
draft 2010 Post-Election Voting Survey of Uniformed Service Members: Mode and
Nonresponse Bias (NRB) Studies performed by DMDC. The purpose of the analysis was
to understand if the 85 percent that did not respond to the survey would have responded
similarly to the 15 percent that did respond. We refer you to the DMDC Mode and
Nonresponse Bias Studies for details, but we cite below from page 18 of the study:

   (1) “The differences are most distinct for the NRB only data. When taken on their
       own and weighted to the full population, the NRB respondents do have some
       statistically significant differences from the production survey.”

   (2) “Other Nonresponse Bias Study Methodology: Several other analyses aimed at
       determining the extent of NRB in the survey were inconclusive.”




                                            17
 The table below reports all nine of the yes/no (binary) questions. In four of the nine
 questions, there is a statistical difference between the respondents and non-respondents.
                                                            TABLE 1


                         2010 Post Election Voting of Uniformed Service Members
                                                                                            Wtd                   Wtd
                                    Table 1: Nonresponse Bias Results                     produc                  NRB
                                                                                          tion %                 only %
Confidence
Interval
non-
overlap*       Table                                                                       Pt est      me        Pt est      me
                       On November 2, 2010, were you deployed in the United
     Yes        B1                                                                           21         2          31            6
                       States or territories, or overseas?

                       On November 2, 2010, did you live more than 50 miles from
     No         B4                                                                           76         2          77            5
                       your legal voting residence?

                       During the past 6 years, did you usually vote in national,
     No         B6                                                                           50         3          45            6
                       state, and local elections, or did you usually not vote?

                       During the months leading up to the election held on
     Yes        B7     November 2, 2010, did you ever plan to vote in that election,         54         3          42            6
                       or did you not plan to vote?

                       During 2010, did you receive voting information or
     No         B11                                                                          37         3          42            7
                       assistance from a Unit Voting Assistance Officer?

                       During 2010, did you receive voting information or
     No         B12                                                                          23         3          21            6
                       assistance from an Installation Voting Assistance Office?

                       In preparation for the 2010 primaries and general election,
     Yes        B13    did you visit the Federal Voting Assistance Program Web               18         2          10            5
                       site?

                       In preparation for the 2010 primaries and general election,
                       did you refer to the Department of Defense 2010-11 Voting
     No         B14                                                                          12         2          10            5
                       Assistance Guide for information about registering to vote or
                       requesting an absentee ballot?

                       Elections for President, the U.S. Senate, and U.S. House of
     Yes        B17    Representatives were held in 2008… Did you vote in that               50         3          39            6
                       election?

 Result: Four of nine tables Confidence Intervals (CI) do not overlap, thus their point estimates are statistically different.
 1
  confidence intervals are (p1-me1, p1+me1) and (p2-me2, p2+me2), i.e. the point estimate minus and plus the m.e.
 (margin of error).

 Table B1 example is (19, 23) and (25, 37) – which do not overlap. If the two intervals do not overlap, then there is a
 statistical difference between the point estimates.
 3
   Appendix B: Draft 2010 Post-Election Voting Survey of Uniformed Service Members: Mode and Nonresponse Bias
 Studies.




                                                               18
ESTIMATES

The FVAP 2010 Post Election Survey Report to Congress, September 2011, contains
estimates from the 2006, 2008 and 2010 post-election survey. It also contains the general
U.S. CVAP estimates. We focused our review of Active Duty Military on the 2010
post-election survey estimates.

The survey weights are created to account for unequal selection probabilities and varying
response rates among the population subgroups. The DMDC calculated two types of
weights, unadjusted and adjusted. Because the active duty military differs from the
general U.S. voting population, higher proportion of males and younger personnel,
DMDC adjusted the weights to produce rates comparable to the general U.S. CVAP.
Using the DMDC unadjusted and adjusted weights, we verified the unadjusted and
adjusted Active Duty Military estimates produced by DMDC.

Table 2 provides the number of concurred and the non-concurred estimates.
           Table 2: The Number of Concurred and Non-concurred Active Duty Military Estimates
                           Contained in the 2010 Post Election Survey Report.


                 Total estimates                                    Total               Total non-
 Estimates                            Total recalculated
                    in report                                     concurred             concurred
Unadjusted              71                     71                    71                     0
 Adjusted               13                     13                    13                     0*
  Total                 84                     84                    84                     0

   * Fig. 7 page 14 age group 35-44 of Adjusted Active Duty Military differs by 1% after rounding,
   which is insignificant.

In our limited review, we neither validated the data nor studied the data collection
methodology. Within that scope, we were able to reproduce most of the estimates using
the weights provided by DMDC.

SURVEY APPROACH

Due to the low response rate with the web survey approach, other survey modes should
be explored. We are not addressing data collection issues.

Attachment 1: The 2010 Post Election Survey Estimates (unadjusted)
Attachment 2: The 2010 Post Election Survey Estimates (adjusted)




                                                  19
                                          Attachment 1
               The 2010 Post Election Survey Report to Congress - September 2011

               Unadjusted Active Duty Military (ADM)

p iii Top figure, Registration rates adjusted for age & gender ADM
                       DEN           NUM
                  1,565,541     1,199,980         76.65%

p iii Bottom figure, Participation rates adjusted for age & gender ADM
                       DEN           NUM
                 1,565,541       459,155         29.33%

Figure 1       ADM
   by AGE            DEN         NUM
       18-24    1,565,541      515,621         32.94%
       25-29    1,565,541      366,345         23.40%
       30-34    1,565,541      241,132         15.40%
       35-44    1,565,541      343,661         21.95%
         >45    1,565,541       98,035          6.26%

Figure 2       ADM
  GENDER             DEN          NUM
                1,565,541     1,346,567        86.01%
                1,565,541       218,228        13.94%

Figure 5       Registration rates
   by AGE            DEN           NUM
       18-24      515,621        350,050       67.89%
       25-29      366,345        284,697       77.71%
       30-34      241,132        194,929       80.84%
       35-44      343,661        283,907       82.61%
         >45       98,035         85,650       87.37%
      TOTAL     1,565,541      1,199,980       76.65%

Figure 6       2010 Participation rates
                     DEN            NUM
                1,565,541       459,155        29.33%    voted in (1 2 3 4)

Figure 7       1-5 voted    1-4 voted
   by AGE            DEN          NUM                                code
       18-24      471,382       81,561          15.82                   2
       25-29      332,337       90,662          24.81                   3
       30-34      225,353       73,194          30.41                   4
       35-44      330,950      158,759          46.25                   5
         >45       94,811       54,857          56.01                   6

Figure 8       ADM absentee ballot return rates
   by AGE           DEN          NUM
       18-24      47,867       27,114           56.65%
       25-29      59,086       47,324           80.09%
       30-34      46,556       40,068           86.07%




                                                20
       35-44       96,014         84,747          88.27%
         >45       29,694         28,011          94.33%

Figure 9       Interest in voting, planned, and actually voted
                      DEN             NUM
                 1,564,435        858,226         54.86%
                 1,564,473        847,195         54.15%
                 1,563,740        459,155         29.36%

Figure 10      Interest in election
   by AGE             DEN            NUM
       18-24       515,001        212,020         41.17%
       25-29       366,345        180,051         49.15%
       30-34       241,051        139,939         58.05%
       35-44       343,260        244,423         71.21%
         >45        98,031          81,404        83.04%
   OVERALL       1,564,435        858,226         54.86%

Figure 11      Planned to vote in the election
   by AGE            DEN            NUM
       18-24      515,001       214,931           41.73%
       25-29      366,345       183,216           50.01%
       30-34      241,051       134,282           55.71%
       35-44      343,322       236,268           68.82%
         >45       98,007         78,110          79.70%
   OVERALL      1,564,473       847,195           54.15%

Figure 12      Interested in voting
   by AGE             DEN           NUM
       18-24       212,020         60,766         28.66%
       25-29       179,292         75,231         41.96%
       30-34       139,939         67,306         48.10%
       35-44       244,423        148,724         60.85%
         >45        81,326         52,321         64.34%
   OVERALL         857,389        404,471         47.17%

Figure 13      Planned to vote and actually voted
   by AGE            DEN          NUM
       18-24      214,931        71,848         33.43%
       25-29      182,457        79,659         43.66%
       30-34      133,865        69,188         51.68%
       35-44      236,239       153,402         64.93%
         >45       78,032        53,910         69.09%
   OVERALL        845,913       428,130         50.61%

Figure 14      Completed and retuned absentee ballots
   by AGE           DEN          NUM
       18-24      47,867        27,114       56.65%
       25-29      59,086        47,324       80.09%
       30-34      46,556        40,068       86.07%
       35-44      96,014        84,747       88.27%
         >45      29,694        28,011       94.33%



                                                   21
  OVERALL         279,330      227,379           81.40%

Figure 15      Received their absentee ballots
   by AGE            DEN          NUM
       18-24      84,007         47,867          56.98%
       25-29      88,407         59,086          66.83%
       30-34      61,162         46,556          76.12%
       35-44     119,984         96,202          80.18%
         >45      38,651         29,706          76.86%
   OVERALL       392,325        279,530          71.25%

Figure 23      Reasons ADM & Spouses of ADM did not vote
 by Reason          DEN        NUM
                 662,088     134,564       20.32% not interested in voting
                 662,088      87,668       13.24% no candidate preference
                 662,088     100,090       15.12% too busy to vote
                 662,088      56,707        8.56% forgot to vote
                 662,088      65,185        9.85% absentee ballot did not arrive
                 662,088      35,398        5.35% absentee voting process too complicated




                                                  22
                                              Attachment 2
                   The 2010 Post Election Survey Report to Congress - September 2011

                       Adjusted Active Duty Military (ADM)


p iii Top figure, Registration rates adjusted for age & gender ADM
                                  DEN                NUM
                          210,799,932          177,460,187     84.18%


p iii Bottom figure, Participation rates adjusted for age & gender ADM
                                  DEN                NUM
                          210,799,932           96,068,205     45.57%


Figure 5            Registration rates
   by AGE                         DEN                NUM
           18-24           24,500,258           17,167,842     70.07%
           25-29           19,695,656           15,434,920     78.37%
           30-34           16,604,155           14,189,621     85.46%
           35-44           36,510,090           30,681,109     84.03%
            >45           113,211,211           99,708,132     88.07%


Figure 6            2010 Participation rates
                                  DEN                NUM
                          210,799,932           96,068,205     45.57%


Figure 7            Participation rates
   by AGE                         DEN                NUM
           18-24         24500258.00            3839185.86        16%
           25-29         19679987.66            5531209.97        28%
           30-34         16590342.55            5956217.73        36%
           35-44         36487152.44           17357199.67        48%
            >45         113191377.00           63335629.06        56%




                                                     23
This Page Intentionally Left Blank




               24
Appendix B. Prior Report Coverage
In the aftermath of the November 2000 Presidential election, and subsequently
necessitated by law or Congressional request, the GAO, DoDIG, Postal Service IG, State
Department IG, Military Service IGs, and other Federal entities, were required to report
on voting assistance programs. Absentee voting assistance reports issued since
November 2000, excluding the annual Military Service IG reports, are listed below.
GAO

GAO Report No. GAO-10-476, “Elections: DOD Can Strengthen Evaluation of Its
Absentee Voting Assistance Program,” June 17, 2010.

GAO Report No. GAO-07-774, “Elections: Action Plans Needed to Fully Address
Challenges in Electronic Absentee Voting Initiatives for Military and Overseas Citizens,”
June 14, 2007.

GAO Report No. GAO-06-1134T, Testimony Before the Committee on Armed Services,
United States Senate, “Elections: DOD Expands Voting Assistance to Military Absentee
Voters, but Challenges Remain,” September 28, 2006.

GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,”
April 7, 2006.

GAO Report No. GAO 02-90, “Elections: A Framework for Evaluating Reform
Proposals,” October 15, 2001.

GAO Report No. GAO-01-1026, Elections: Voting Assistance to Military and Overseas
Citizens Should Be Improved, September 28, 2001.

GAO Testimony Before the Subcommittee on Military Personnel, Committee on Armed
Services, House of Representatives, “Elections: Issues Affecting Military and Overseas
Absentee Voters,” May 9, 2001.

GAO Report No. GAO-01-470, “Elections: The Scope of Congressional Authority in
Election Administration,” March 2001.

DoDIG

DoD IG Report No. DoDIG-2012-068, “Assessment of Voting Assistance Programs for
Calendar Year 2011,” March 30, 2012.

DoD IG Report No. SPO-2011-006, “2010 Evaluation of the DoD Federal Voting
Assistance Program (FVAP),” March 22, 2011.




                                           25
DoDIG (Continued)

DoD IG Report No. SPO-2010-004, “2009 Evaluation of the DoD Voting Assistance
Program,” September 27, 2010.

DoD IG Report No. IE-2009-005, “2008 Evaluation of the DoD Voting Assistance
Program,” April 30, 2009.

DoD IG Report No. IE-2008-002, “2007 Evaluation of the Federal Voting Assistance
Program in the Department of Defense,” March 31, 2008.

DoD IG Report No. IE-2007-004, “Evaluation of the Voting Assistance Program,”
March 31, 2007.

DoD IG Report No. IE-2006-001, “Evaluation of the Voting Assistance Program,”
March 31, 2006.

DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance Program,”
March 31, 2005.

DoD IG Report No. D-2004-065, “DoD Implementation of the Voting Assistance
Program,” March 31, 2004.

DoD IG Report No. D-2003-072, “DoD Compliance with the Uniformed and Overseas
Citizens Absentee Voting Act,” March 31, 2003.

DoD IG Report No. D-2001-145, “Overseas Absentee Ballot Handling in DoD,” June 22,
2001.

United States Department of State

United States Department of State Report No. 01-FP-M-045, “Review of Implementation
of the Federal Voter Assistance Program,” August 2001.

United States Postal Service Inspector General

USPS-OIG Audit Report No. NO-AR-05-007, “Processing of Overseas Military
Absentee Ballots,” March 29, 2005.

United States Department of Defense – Federal Voting Assistance Program
Office

Federal Voting Assistance Program, “2010 Post Election Survey Report to Congress,”
September 2011.




                                         26
United States Department of Defense – Federal Voting Assistance Program
Office (Continued)

Congressional Testimony, “Statement of Bob Carey, Director, Federal Voting Assistance
Program, Before the House Armed Services Committee, Military Personnel
Subcommittee on Military Voting,” July 15, 2011.

Defense Manpower Data Center Report No. 2011-007, “2010 Post-Election Voting
Survey of the Active Duty Military: Statistical Methodology Report,” April 2011.

Federal Voting Assistance Program, “Report on the Status and Implementation of
Military and Overseas Voter Empowerment Act Programs,” March 17, 2011.

Principal Deputy Under Secretary of Defense for Personnel and Readiness, “Independent
Review, Final Report for the Interim Voting Assistance System (IVAS),” August 2006.

Secretary of Defense “Report on DoD Actions to Support Voting Assistance to Armed
Forces Outside the U.S.,” December 2004.




                                          27
This Page Intentionally Left Blank




               28
Appendix C. Installation Voting Assistance
Offices (IVAO)
IVAO Compliance – The FVAP 2010 Post Election Survey Report to Congress, dated
September 2011, enumerated a purported universe of 224 installations worldwide that
required IVAOs. However, the list of 224 installations did not include major bases in the
United States, such as Fort Meade, Maryland, or bases in overseas locations, such as
Germany and Korea. Further, the list of 224 contained duplications or bases that were
consolidated or closed as a result of the Base Closure and Realignment Commission.

To determine the total extent to which FVAP records were incomplete or in error, we
developed a separate list of military installations from various sources, including Military
Service records and revisions to the official FVAP website as it was posted in
March 2012. The first column in the following tables reflect that effort. Reconciling
errors, omissions, or inconsistencies in FVAP records, Service records, or information
from other sources was beyond the scope of our work, and it was not our intent to do so.
Accordingly, we make no representation that the list in column one is a definitive
compilation of all military bases worldwide. Our only purpose in developing the list was
to provide a basis for analyzing IVAO coverage and the potential magnitude of the
requirement to place IVAOs on all installations worldwide. In some cases, Military
Service voting assistance officials explained that certain bases did not meet the criteria
for IVAO coverage and were consequently exempted. We noted their explanations and
acknowledge certain exemptions might be reasonable. But the officials were not able to
provide the authoritative written criteria necessary for us to evaluate the reasonableness
of such exceptions to law.

IVAO Effectiveness – To assess the effectiveness of IVAOs that purportedly existed,
we placed ourselves in the shoes of potential voters seeking help. Using official FVAP
website contact information, as posted on the FVAP website during March 2012, we
attempted to contact 100 percent of the IVAOs the website identified. Our process for
attempting to contact all IVA Offices or Officers consisted of:
   •   telephoning and e-mailing using the contact data on the FVAP website;
   •   leaving a prepared message asking for a return call, if the call went to voice mail;
   •   using installation websites or directory assistance to find correct contact
       information, if the telephone number and/or e-mail were incorrect;
   •   conducting a survey with the IVA Officer to determine the operability of the IVA
       Office; and
   •   considering an attempted contact as a failed contact if we could not obtain correct
       contact data, left a voice mail and/or sent an e-mail with no response, or did not
       receive a response within 72 hours after leaving a voice mail or sending an e-mail.

The second column in the following tables identify the IVAOs posted on the FVAP
website. The third column identifies successful contacts. Our attempts to contact IVAOs
posted on the FVAP website failed about 50 percent of the time. See individual Military
Service tables on the following pages.


                                            29
                                   Army Installations
                                                            IVAOs Identified
               List of Military Installations                 by the FVAP       Contact
             Compiled from Various Sources                  Website in March   Achieved
                                                                  2012

                Continental United States

Anniston Army Depot, Alabama
Fort Rucker, Alabama                                               X              X
Redstone Arsenal, Alabama                                          X              X
U.S. Army Garrison, Fort Greely, Alaska                            X
Fort Huachuca, Arizona                                             X
Yuma Proving Grounds, Arizona                                      X              X
Pine Bluff Arsenal, Arkansas
National Training Center, Fort Irwin, California                   X              X
U.S. Army Garrison, Presidio of Monterey, California               X
Sierra Army Depot, California
Fort Carson, Colorado                                              X              X
U.S. Army Garrison Miami (U.S. SOUTHCOM), Florida                  X              X
Fort Benning, Georgia                                              X
Fort Gordon, Georgia                                               X              X
Fort Stewart, Georgia                                              X              X
Fort McPherson, Georgia (Closed September 15, 2011)                X             NA
Rock Island Arsenal, Illinois
Crane Army Ammunition Activity, Indiana
Fort Leavenworth, Kansas                                           X              X
Fort Riley, Kansas                                                 X              X
Blue Grass Army Depot, Kentucky
Fort Campbell, Kentucky                                            X
Fort Knox, Kentucky                                                X              X
Fort Polk, Louisiana                                               X              X
Aberdeen Proving Ground, Maryland                                  X              X
Fort Detrick, Maryland
Fort Meade, Maryland                                               X
U.S. Army Garrison, Detroit Arsenal, Michigan
Fort Leonard Wood, Missouri                                        X              X
Hawthorne Army Depot, Nevada
Picatinny Arsenal, New Jersey
White Sands Missile Range, New Mexico                              X              X
United States Military Academy, New York                           X              X
Fort Drum, New York                                                X              X
Fort Hamilton, New York
Fort Bragg, North Carolina – Note: In February 2011, Pope
                                                                   X
    Air Force Base merged with Fort Bragg as Pope Field
Fort Sill, Oklahoma                                                X              X
The Army War College and Carlisle Barracks, Pennsylvania
Letterkenny Army Depot, Pennsylvania
Fort Jackson, South Carolina                                       X              X
Corpus Christi Army Depot, Texas
Red River Army Depot, Texas
Fort Bliss, Texas                                                  X
Fort Hood, Texas                                                   X              X
U.S. Army Dugway Proving Ground, Utah
Joint Base Myer-Henderson Hall, Virginia                           X              X
    Fort Myer (U.S. Army)
    Henderson Hall (U.S. Marine Corps)
    Fort Lesley J. McNair (U.S. Army – Washington, DC)




                                                30
                          Army Installations (Continued)
                                                      IVAOs Identified
                List of Military Installations          by the FVAP       Contact
              Compiled from Various Sources           Website in March   Achieved
                                                            2012
Fort A. P. Hill, Virginia
Fort Belvoir, Virginia                                       X              X
Fort Monroe, Virginia (Closed 2011)                          X             NA
Fort Lee, Virginia                                           X              X
Joint Base Lewis-McChord, Washington (State)
    Fort Lewis (U.S. Army)                                   X              X
    McChord Air Force Base
Fort McCoy, Wisconsin                                        X

               Alaska, Hawaii, and the Pacific

Fort Wainwright, Alaska                                      X              X
Fort Shafter, Hawaii
Schofield Barracks, Hawaii                                   X
U.S. Army Garrison, Torii Station, Okinawa, Japan            X
U.S. Army Garrison, Camp Zama, Japan                         X
U.S. Army Garrison, Camp Casey, Korea                        X
U.S. Army Garrison, Deagu, Korea                             X              X
U.S. Army Garrison, Humphreys, Korea                         X
U.S. Army Garrison, Red Cloud, Korea                         X              X
U. S. Army Garrison, Yongsan, Korea                          X              X

                          Europe

U.S. Army Garrison Benelux, Belgium

U.S. Army Garrison Ansbach, Germany                          X
U.S. Army Garrison Baden-Württemberg, Germany                X
U.S. Army Garrison Bamberg, Germany
U.S. Army Garrison Baumholder, Germany
U.S. Army Garrison Garmisch, Germany                         X
U.S. Army Garrison Grafenwoehr, Germany                      X
U.S. Army Garrison Heidelberg, Germany
U.S, Army Garrison Hohenfels, Germany                        X              X
U.S. Army Garrison Kaiserslautern, Germany
U.S. Army Garrison Mannheim, Germany
U.S. Army Garrison Schweinfurt, Germany                      X              X
U.S. Army Garrison Stuttgart, Germany                        X              X
U.S. Army Garrison Wiesbaden, Germany                        X

U.S. Army Garrison, Livorno, Italy                           X
U.S. Army Garrison, Vicenza, Italy                           X

U.S. Army Garrison Schinnen, Netherlands

Total Army                                                  54              31




                                                 31
                                 Air Force Installations
                                                          IVAOs Identified
               List of Military Installations               by the FVAP       Contact
             Compiled from Various Sources                Website in March   Achieved
                                                                2012

                Continental United States

The Air War College and Maxwell Air Force Base, Alabama          X
Eielson Air Force Base, Alaska                                   X
Joint Base Elmendorf-Richardson, Alaska
     Elmendorf Air Force Base                                    X
     Fort Richardson (U.S. Army)
Davis-Monahan Air Force Base, Arizona                            X
Luke Air Force Base, Arizona                                     X
Little Rock Air Force Base, Arkansas                             X
Beale Air Force Base, California                                 X              X
Edwards Air Force Base, California                               X
Los Angeles Air Force Base, California                           X
Travis Air Force Base, California                                X
Vandenberg Air Force Base, California                            X              X
Buckley Air Force Base, Colorado                                 X              X
United States Air Force Academy, Colorado                        X              X
Peterson Air Force Base, Colorado                                X              X
Schriever Air Force Base, Colorado                               X              X
Dover Air Force Base, Delaware                                   X              X
Elgin Air Force Base, Florida                                    X
Hurlburt Field, Florida                                          X              X
MacDill Air Force Base, Florida                                  X
Patrick Air Force Base, Florida                                  X
Tyndall Air Force Base, Florida                                  X
Moody Air Force Base, Georgia                                    X
Robins Air Force Base, Georgia                                   X
Mountain Home Air Force Base, Idaho                              X              X
Scott Air Force Base, Illinois                                   X
McConnell Air Force Base, Kansas                                 X              X
Barksdale Air Force Base, Louisiana                              X
Joint Base Andrews, Maryland
     Andrews Air Force Base                                      X              X
     Naval Air Facility Washington
Hanscom Air Force Base, Massachusetts                            X              X
Columbus Air Force Base, Mississippi                             X              X
Keesler Air Force Base, Mississippi                              X
Whiteman Air Force Base, Missouri                                X
Malmstrom Air Force Base, Montana                                X
Offutt Air Force Base, Nebraska                                  X              X
Nellis Air Force Base, Nevada                                    X
Joint Base McGuire-Dix-Lakehurst, New Jersey
     McGuire Air Force Base                                      X              X
     Fort Dix (U.S. Army)                                        X              X
     Naval Air Engineering Station Lakehurst
Cannon Air Force Base, New Mexico                                X
Holloman Air Force Base, New Mexico                              X
Kirtland Air Force Base, New Mexico                              X
Seymour Johnson Air Force Base, North Carolina                   X
Grand Forks Air Force Base, North Dakota                         X
Minot Air Force Base, North Dakota                               X




                                                32
                       Air Force Installations (Continued)
                                                      IVAOs Identified
                List of Military Installations          by the FVAP       Contact
              Compiled from Various Sources           Website in March   Achieved
                                                            2012
Wright-Patterson Air Force Base, Ohio                        X              X
Altus Air Force Base, Oklahoma                               X
Tinker Air Force Base, Oklahoma                              X
Vance Air Force Base, Oklahoma                               X              X
Joint Base Charleston, South Carolina
     Charleston Air Force Base                               X              X
     Naval Support Activity Charleston
Shaw Air Force Base, South Carolina                          X
Ellsworth Air Force Base, South Dakota                       X              X
Dyess Air Force Base, Texas                                  X              X
Goodfellow Air Force Base, Texas                             X
Laughlin Air Force Base, Texas                               X
Joint Base San Antonio, Texas
     Randolph Air Force Base                                 X
     Fort Sam Houston (U.S. Army)                            X              X
     Lackland Air Force Base                                 X
Sheppard Air Force Base, Texas                               X
Hill Air Force Base, Utah                                    X              X
Joint Base Langley–Eustis, Virginia
     Langley Air Force Base                                  X              X
     Fort Eustis (U.S. Army)
Fairchild Air Force Base, Washington (State)                 X              X
F.E. Warren Air Force Base, Wyoming                          X

The Pacific

Kunsan Air Base, Korea                                       X              X
Kadena Air Base, Japan                                       X
Misawa Air Base, Japan                                       X
Osan Air Base, Japan                                         X              X
Yokota Air Base, Japan                                       X

Europe and the Middle East

Lakenheath Air Base, England                                 X
Mildenhall Air Base, England                                 X
Lajes Field, Portugal                                        X              X

Ramstein Air Base, Germany                                   X
Spangdahlem Air Base, Germany                                X              X
Aviano Air Base, Italy                                       X
Incirlik Air Base, Turkey                                    X
Al Udeid Air Base, Doha, Qatar                               X              X

Total Air Force                                             74              29




                                                 33
                                    Navy Installations
                                                              IVAOs Identified
               List of Military Installations                   by the FVAP       Contact
             Compiled from Various Sources                    Website in March   Achieved
                                                                    2012

                 Continental United States

Naval Air Facility El Centro, California                             X              X
Naval Air Station Lemoore, California                                X              X
Naval Base Point Loma, California          (San Diego)               X              X
Naval Base San Diego, California           (San Diego)               X
Naval Base Coronado, California            (San Diego)               X              X
Naval Base Ventura County, California                                X
Naval Air Weapons Station China Lake. California                     X
Naval Support Activity Monterey, California                          X              X
Naval Weapons Station Seal Beach, California                         X
Naval Submarine Base New London, Connecticut                         X
Naval Air Station Jacksonville, Florida    (Jacksonville)            X              X
Naval Station Mayport, Florida             (Jacksonville)            X              X
Naval Air Station Key West, Florida                                  X              X
Naval Air Station Pensacola, Florida                                 X
Naval Air Station Whiting Field, Florida                             X
Naval Support Activity Orlando, Florida                              X              X
Naval Support Activity Panama City, Florida                          X
Naval Submarine Base Kings Bay, Georgia                              X
Naval Station Great Lakes, Illinois                                  X              X
Naval Support Activity Crane, Indiana                                X              X
Naval Air Station Joint Reserve Base New Orleans, Louisiana          X
Naval Air Station Patuxent River, Maryland                           X              X
Naval Support Activity Annapolis, Maryland                           X              X
United States Naval Academy, Maryland
Walter Reed National Medical Center, Bethesda, Maryland              X
Naval Construction Battalion Center, Gulfport, Mississippi           X
Naval Air Station Meridian, Mississippi                              X
Naval Air Station Fallon, Nevada                                     X              X
Naval Weapons Station Earle, New Jersey                              X              X
Naval Support Activity Saratoga Springs, New York                    X              X
Naval Support Activity Mechanicsburg, Pennsylvania                   X              X
Naval Support Activity Philadelphia, Pennsylvania
Naval War College and Naval Station Newport, Rhode Island            X
Naval (Hospital) Support Facility Beaufort, South Carolina
Naval Support Activity Mid-South, Tennessee                          X              X
Naval Air Station Corpus Christi, Texas                              X              X
Naval Air Station Fort Worth Joint Reserve Base, Texas               X
Naval Air Station Kingsville, Texas                                  X
Joint Expeditionary Base Little Creek-Fort Story, Virginia           X              X
    Naval Amphibious Base Little Creek
    Fort Story (U.S. Army)
Naval Air Station Oceana, Virginia                                   X              X
Naval Station Norfolk, Virginia                                      X              X
Naval Support Activity Hampton Roads, Virginia                       X              X
Naval Support Activity South Potomac, Virginia
    Naval Support Facility Indian Head, Maryland
    Naval Support Facility Dahlgren, Virginia                        X              X
Norfolk Naval Shipyard, Virginia                                     X              X




                                                34
                          Navy Installations (Continued)
                                                            IVAOs Identified
                List of Military Installations                by the FVAP       Contact
              Compiled from Various Sources                 Website in March   Achieved
                                                                  2012

Naval Weapons Station Yorktown, Virginia                           X              X
Surface Combat Systems Center Wallops Island, Virginia
Naval Air Station Whidbey Island, Washington (State)               X
Naval Base Kitsap, Washington (State)                              X
Naval Magazine Indian Island, Washington (State)                   X              X
Naval Station Everett, Washington (State)                          X              X
Joint Base Anacostia-Bolling, Washington, D.C.                     X              X
    Naval Support Facility Anacostia
    Bolling Air Force Base
Naval Support Activity (Navy Yard), Washington, D.C.               X              X
Information Operations Command Sugar Grove, West Virginia
Portsmouth Naval Shipyard (New Hampshire)                          X              X

          Atlantic, Europe, Africa and Middle East

Naval Station Guantanamo Bay, Cuba                                 X              X
Camp Lemonnier, Djibouti, Africa                                   X              X
Naval Air Station Sigonella, Italy                                 X              X
Naval Station Rota, Spain                                          X
Naval Support Activity, Bahrain                                    X
Naval Support Center Naples, Italy                                 X
Naval Support Activity Souda Bay, Greece                           X              X
Navy Support Facility Diego Garcia                                 X              X

                   Hawaii and the Pacific

Joint Base Pearl Harbor-Hickam, Hawaii                             X              X
    Naval Base Pearl Harbor
    Hickam Air Force Base
Pacific Missile Range Facility Barking Sands, Hawaii               X              X
Joint Region Marianas
    Naval Base Guam                                                X
    Anderson Air Force Base, Guam                                  X
    Naval Support Activity Anderson, Guam

Commander Fleet Activities, Chinhae, Korea                         X
Commander Fleet Activities, Okinawa, Japan                         X
Commander Fleet Activities, Sasebo, Japan                          X
Commander Fleet Activities, Yokosuka, Japan                        X
Naval Air Facility Atsugi, Japan                                   X
Naval Air Facility Misawa, Japan                                   X
Navy Region Center Singapore/Singapore Area Coordinator            X

Total Navy                                                        68              38




                                                 35
                               Marine Corps Installations
                                                            IVAOs Identified
               List of Military Installations                 by the FVAP       Contact
             Compiled from Various Sources                  Website in March   Achieved
                                                                  2012

                 Continental United States

Marine Corps Air Station Yuma, Arizona                             X
Marine Corps Air Ground Combat Center, California                  X              X
Marine Corps Air Station Miramar, California                       X              X
Marine Corps Base Camp Pendleton, California                       X              X
Marine Corps Logistics Base Barstow, California                    X
Marine Corps Mountain Warfare Training Center, California          X
Marine Corps Recruit Depot San Diego, California                   X              X
Marine Corps Support Facility – Blount Island, Florida             X
Marine Corps Logistics Base Albany, Georgia                        X              X
Marine Corps Air Station Cherry Point, North Carolina              X              X
Marine Corps Base Camp Lejeune, North Carolina                     X              X
    Marine Corps Air Station New River, North Carolina
Marine Corps Air Station Beaufort, South Carolina                  X
Marine Corps Recruit Depot Parris Island, South Carolina           X              X
Marine Corps Base Quantico, Virginia                               X              X
Marine Barracks 8th & I, Washington, DC

                           Pacific

Marine Corps Base Hawaii                                           X              X

Marine Corps Air Station Iwakuni, Japan                            X
Marine Corps Air Station Futenma, Japan
Combined Arms Training Center Camp Fuji, Japan                     X
Marine Corps Base Camp Butler, Japan                               X

Marine Corps Camp Mujuk, Korea

Total Marine Corps                                                18              10




                                                36
                                 Coast Guard Installations
                                                            IVAOs Identified
               List of Military Installations                 by the FVAP           Contact
             Compiled from Various Sources                  Website in March       Achieved
                                                                  2012

Coast Guard Station Ketchikan, Alaska                              X                   X
Coast Guard Air Station Kodiak, Alaska                             X
Coast Guard Island Alameda, California                             X
Coast Guard Base Los Angeles-Long Beach, California                X
Coast Guard Base New London, Connecticut                           X
Coast Guard Station Miami Beach, Florida                           X
Coast Guard Fourteenth District, Honolulu, Hawaii                  X
Coast Guard Station New Orleans, Louisiana                         X                   X
Coast Guard First District, Boston, Massachusetts                  X                   X
Coast Guard Base Detachment St. Louis, Missouri                    X
Coast Guard Base Cape May, New Jersey                              X                   X
Coast Guard Ninth District, Cleveland, Ohio                        X
Coast Guard Base Support Unit Portsmouth, Virginia                 X                   X
Coast Guard Base Support Unit Seattle, Washington (State)          X                   X
Coast Guard Station Washington, DC*                                X

Total Coast Guard                                                  15                  6

* Coast Guard Station Washington DC is located on Joint Base Anacostia-Bolling (See Navy
Installations).




                                                37
This Page Intentionally Left Blank




               38
Appendix D. Management Comments
Federal Voting Assistance Program Office Comments




                                     39
This Page Intentionally Left Blank




               40
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              400 0DUN&HQWHU Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            AOH[DQGULD, VA 22





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
